Supreme Court, U.S.
FILED

JUN 2 4 2020

No. 19-1283

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
JAMES TOLLE,
Petitioner,
vs.

GOVERNOR RALPH NORTHAM
AND THE COMMONWEALTH OF VIRGINIA,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
MOTION FOR EXPEDITED HEARING OF PETITION
James Tolle
pro se
11171 Soldiers Court
Manassas, VA 20109
(703) 232-9970
jtmail0000@yahoo.com

Governor Ralph Northam
Office of the Governor
1111 East Broad Street
Richmond, Virginia 23219
Commonwealth of Virginia
Mark Herring
Attorney General
Toby Heytens
Solicitor of General
Office of the Attorney General
202 North Ninth Street
Richmond, Virginia 23219

RECEIVED
JUN 2 9 2020
ERK
OFFICE OFCOURT U.S.
SUPREME

Petitioner's Motion for Expedited Hearing
Petitioner's present motion requests an expedited hearing of his Petition for Writ of
Certiorari to the United States Court of Appeals for the Fourth Circuit. The intent of the original
Petition in this case was to seek emergency relief from the Court to stay Respondent Northam's
Executive Orders which are continuing, even now, to deny Petitioner's fundamental
Constitutional rights. The Court has recently granted an extension until July 27, 2020, for
Respondents to address Petitioner's complaints, delaying the Court's hearing of Petitioner's
request for at least one more month. Petitioner attempted to oppose the Court's extension due to
the ongoing, irreparable harm to his Constitutional rights, but the Court failed to consider the
response. In light of the additional delays due to the Court's extension, Petitioner respectfully
requests that the Court will review Petitioner's request for relief after July 27, 2020, without
delay for the following reasons.

Respondent Northam's Orders are Continuing to Cause Injury to Petitioner
Despite the fact that Respondent Northam has replaced his original Executive
Order which was the subject of Petitioner's original complaint with new orders intended to
lessen the restrictions on business in Virginia, the latest Executive Orders of Respondent
Northam continue to enforce an overreach of the Governor's executive powers which are still
denying Petitioner's fundamental Constitutional rights and even adding more restrictions to
Petitioner's freedoms beyond the previous orders. Respondent Northam's Order "Amended
Number Sixty-Five (2020) and Amended Order of Public Health Emergency Six" (hereinafter,
"EO-65", see Appendix A) which has replaced his earlier stay-at-home orders still illegally

1

abridges the fundamental Constitutional rights of citizens like Petitioner for the following
reasons:
Respondent Northam's orders violate the First and Fourteenth Amendments by
continuing to enforce an illegal quarantine without invoking an order of quarantine as required
by the Virginia legislature under Va. Code ยง 44.146-17 and ยง 32.1-48.05 and restrict the free
assembly of citizens with unwarranted restrictions on the gathering of healthy individuals. These
restrictions on the free assembly of American citizens have been shown to be unwarranted
because of recent guidance from medical authorities which have supported Petitioner's
arguments that the consensus of science does not warrant restrictions on healthy persons.
Furthermore, these restrictions have been shown to be unwarranted and also underscored the
unequal treatment of citizens in violation of the Fourteenth Amendment when Respondent
Northam failed to enforce his orders on his political allies who were violating the restrictions on
outdoor gatherings during the recent protests in Richmond, Virginia Beach and in Petitioner's
own county of Prince William County.
Respondent Northam's orders continue to violate Petitioner's rights under the
Fourth Amendment by perpetuating the Governor's improper extension of the State's authority to
how persons exercise their constitutional rights on their private property. The only justification
for the extension of State powers against private actions on private property which are not
subject to business licensing are for law enforcement purposes during the commission of a crime
(see Jones v. United States 357 U.S. 493 (1958); United States v. Rabinowitz 339 U.S. 56
(1950)) or when the legislature has determined that there is a direct and immediate threat to
public safety (see Camara v. Municipal Court, 387 U.S. 523 (1967)). Petitioner's filings have
provided evidence and arguments showing that Respondent Northam's claim that persons
gathering on private property are more of a threat to public health than the same number of
2

persons gathering at an essential business is not supported by the consensus of science. For these
reasons, Respondent Northam's current orders exceed the authority of the State to infringe on the
right of citizens to be secure in their person, houses, papers, and effects under Jones, Rabinowitz
and Camara.
Furthermore, the police power of the State found in Jacobson v. Massachusettes,
197 U.S. 11 (1905), in the interest of public health does not empower a violation of the rights of
citizens on private property under the Fourth Amendment because: i) the facts in Jacobson
involved State action against citizens outside of their private property and was based on the
Fourteenth Amendment, not the Fourth Amendment; ii) even in Jacobson, the Court found that
"the mode or manner of exercising its [the State's] police power is wholly within the discretion
of the State so long as...any right granted or secured thereby [the Constitution and Fourth
Amendment] is not infringed" Id., 11; iii) the Jacobson Court was not dealing with Executive
power as in this case, but with the State power enacted by the legislature, stating: "rilt is within
the police power of a State to enact a compulsory vaccination law, and it is for the legislature,
and not for the courts, to determine", Id., 11; iv) even if this Court finds the police power of the
Executive for public health reasons supported by Jacobson, such powers are not proper when the
Executive circumvents and/or purposely violates the requirements and intentions of the
legislature for use of that power to enforce a quarantine during a public health emergency, as in
Petitioner's case. For these reasons, Respondent Northam's orders against healthy persons for
which there is no consensus of science or good reason to believe that they threaten other
members of the public during a public health emergency still violate the Fourth Amendment.
Responent Northam's current orders are continuing to violate Petitioner's rights
under the Fourteenth Amendment by subjecting healthy persons to restrictions under a quarantine
without due process and without invoking the quarantine laws, which would statutorily provide
3

due process, as required by the Virginia legislature. Furthermore, Respondent Northam's current
orders during the virus panic continue to enforce an improper use of emergency powers against
innocent citizens without due process in violation of the Fourteenth Amendment, similar to how
the Exclusion Orders in the Korematsu v. United States violated the Constitutional rights of
innocent citizens without due process because of the panic of war.
e)

Despite the fact that Respondent Northam's current orders allow religious services

to begin, Respondent Northam's orders continue to infringe on Petitioner's First Amendment
rights by adding restrictions on how religious services are practiced. Specifically, the restrictions
in paragraph B.2.a.iv and B.2.a.v are so invasive to the free practice of religion that Petitioner,
who is a Catholic, cannot receive Holy Communion without violating these rules and being
subject to criminal penalties.

The Consensus of Science still does not Justify Respondent Northam's Extreme Orders
Petitioner's complaint against Respondent Northam's orders has shown that the
extreme actions against healthy persons like Petitioner which deny them due process and their
Constitutional rights are not justified by the consensus of science concerning how healthy
persons without symptoms do not transmit the virus. The original Petition included facts and
data showing that the main mode of transmission of the COVID-19 virus is via persons who have
symptoms and can pass droplets containing the virus through coughing or sneezing. Petitioner
has argued that there is no settled science that proves that persons without symptoms can infect
others. Petitioner has shown that Respondent Northam's own orders, which have never restricted
large gatherings of healthy persons at essential businesses, demonstrate that even Respondents do
not believe that healthy persons are a threat to others.
Although it is true that more people have tragically died from COVID-19 since
4

Petitioner's filing, more information has come out recently which supports Petitioner's argument
that the consensus of science does not justify the extreme actions of Respondent Northam. On
June 8, 2020, the World Health Organization's leading epidemiologist reported at a press briefing
that asymptomatic transmission of COVID-19 is "very rare" based on the data to date.
Subsequent comments by Dr. Van Kerkhove stated that there is no clear answer on whether
COVID-19 is spread by asymptomatic persons.' Even though the large number of deaths
reported to date due to COVID-19 in the United States is dramatic, the COVID-19 pandemic is
still not as horrific as the 1918 pandemic which, as noted in Petitioner's filings, is estimated by
the CDC to have killed 675,000 Americans. But even the data used to determine the scope of the
COVID-19 is not supported by solid science. First, no one has adequately explained how the
data reported for the United States is radically higher than all other countries.2 However, one
possible reason is that in the United States, the methods for reporting deaths have been changed
under Centers for Disease Control guidelines to report cause of death as COVID-19 without a
definitive diagnosis and when a COVID-19 cause is only "suspected" or "presumed".3
According to the New York Times, hospitals are reporting 40 to 60 percent less admissions for
heart attacks during the COVID-19 pandemic.' Unless the Court believes that heart attacks have
magically disappeared in our time, it should be clear that the way statistics are being reported for
COVID-19 is having an impact on the health data and death statistics reported. Based on this,
Petitioner believes that the current official statistics being quoted in the media are probably
1 See Time article at https://www.time.com/5850256/who-asymptomatic-spread/
2 As of June 16, 2020, Johns Hopkins University reports deaths for the United States 119,719,
while deaths reported for other large countries are significantly lower, even when accounting
for population differences: German (8,466 deaths), Canada (7,992 deaths), Japan (837
deaths), South Korea (260 deaths).
3 See "Guidance for Certifying Deaths Due to Coronavirus Disease 2019 (COVID-19)", Vital
Statistics Reporting Guidance, Report No. 3, National Center for Health Statistics, April 2020
4 "Where Have All the Heart Attacks Gone?", Harian Krumholtz, April 6, 2020, New York
Times (Updated May 14, 2020)
5

innacurate and likely inflated due to including conditions which are not confirmed to be actual
COVID-19 cases.
For the above reasons, Petitioner believes that the scientific basis for Respondent
Northam's actions is not sound and that it is becoming more clear as time passes that the
consensus of science does not justify Respondent Northam's emergency orders which have
deprived healthy people like Petitioner of their Constitutional rights.

Reasons to Expedite Hearing of Petitioner's Request for Relief
The foregoing facts and arguments have established that Petitioner's case is not
moot due to the ongoing actions by Respondents which cause continuing injury to Petitioner's
rights and have established why Respondent Northam's orders are not justified by the current
data or the consensus of science. The reasons why the Court should grant Petitioner an expedited
review of his case after July 27, 2020, are as follows.
The Petition before the Court has provided evidence of the serious injury to
Petitioner's Constitutional rights by Respondents and the errors in the lower Courts which have
denied Petitioner a preliminary injunction, stay or any mitigation of Respondents' actions
through mis-application of the balancing test of Winter v. Natural Resources Defense Council,
555 U. S. 7 (2008) have perpetuated this injury.
The recent actions by Respondent Northam to amend his orders have failed to
cease the injury to Petitioner's constitutional rights. Respondent Northam's orders continue to
deny Petitioner's fundamental rights and there is no fixed date for an end to Respondent
Northam's orders.
Petitioner's complaints have included the failure of the lower Courts to provide
emergency relief during an improper State of Emergency imposed by Respondents and Petitioner
6

has raised questions of due process under the Fifth Amendment when the Courts fail to act
during a State of Emergency. Expediting Petitioner's case would help to cure any due process
errors in the lower Courts.
d)

Other individual appeals to this Court for emergency relief due to constitutional

violations by Executive Orders responding to COVID-19 have been taken up and reviewed by
the Court without delay. However unlike those other cases which involved violation of a single
Constitutional right, this case involves the violation of multiple Constitutional rights by an
Executive's exercise of emergency powers during a quarantine.

CONCLUSION
6.

For the above reasons, Petitioner respectfully requests that the Court expedite the

hearing of his case after the July 27, 2020, deadline for Respondent action and grant Petitioner
emergency relief from Respondent Northam's orders. Should the Court not expedite the hearing
of Petitioner's case. after July 27, 2020, Petitioner respectfully requests that the Court grant a full
or partial stay of Responsdent Northam's orders while Petitioner's request for Writ of Certiorari
is pending before the Court. A stay during consideration of Petitioner's case would serve the
interests of justice by restoring the status quo and allowing healthy persons to exercise their
constitutional freedoms. If the Court considers only a partial injunction or stay, Petitioner
respectfully requests that the Court at least stays enforcement of the criminal penalties against
Petitioner when exercising any of his rights under the First, Fourth, and Fourteenth Amendments
while Petitioner's case is pending. Alternatively, if the Court leaves the questions raised by
Petitioner unanswered but remands the case to the lower Courts for decision, Petitioner
respectfully requests that the Court still grant Petitioner a full or partial stay of Respondent
Northam's orders during the time that the case will be considered by the lower Courts in order to
7

mitigate the irreparable harm being done to Petitioner by Respondents currently and to restore
the status quo, allowing Petitioner and other healthy citizens to be free to exercise their
Constitutional rights again while the case is pending.

Dated:

c.)

Q i 0 2-49
Respectfully submitted,
By:
es Tolle
ro Se
11171 Soldiers Court
Manassas, VA 20109
703-232-9970,
jtmail0000@yahoo.com

8

